WAIVER
SUPREME COURT OF THE UNITED STATES
No.
A.P.

The State of Vermont
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Suprerhe Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

3[.akla-t

(Type or print) Name David Tartter
0 Mr.

0 Mrs.

0 Ms.

Firm

Department of State's Attorneys

Address

110 State Street

City & State

Montpelier, VT

Phone

802-828-5557

0 Miss

Zip

05633-6401

Email david.tartter@vermont.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover lettrripiEctivED

3,9uAe
cc

APR - 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

